No.

IN THE

Supreme Court of the United States
_______________

EUGENE SONNIER, II,
v.

Petitioner,

CATHOLIC FOUNDATION OF THE DIOCESE OF
LAYFETTE, ET AL.,
Respondents.
________________
On Petition for Writ of Certiorari
To The Court of Appeal Third Circuit for the State of
Louisiana, Writ Denied Supreme Court of Louisiana
PETITION FOR WRIT OF CERTIORARI
G. Karl Bernard,
Counsel of Record
G. Karl Bernard & Associates
1615 Poydras Street, Suite 101
New Orleans, Louisiana, 70112
(504) 412-9953
_________________________________________________

QUESTIONS PRESENTED
Whether Louisiana’s dis-internment statute,
La. R.S. 8:659, is preempted by Title 10 U.S.C. §
1482, and whether the state statute is in direct
conflict with congressional intent regarding the
rights of members of the United States Armed
Forces to designate an individual authorized to
the direct disposition of their remains if they die
in service of their country, and whether
Louisiana's statute constitutes an obstacle to
the accomplishment and execution of the full
purposes and objectives of Congress in providing
military benefits to service members.

i

PARTIES TO THE PROCEEDING
Petitioner, who was the plaintiff/appellant
below, is Eugene Sonnier, II.
Respondents,
who
were
the
defendants/appellees below, are The Catholic
Foundation of The Diocese of Lafayette, Society
of The Roman Catholic Church of The Diocese of
Lafayette, The Congregation of Saint Genevieve
Roman Catholic Church, Norlet Pierre, and The
Louisiana Cemetery Board.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED ... …………………… i
PARTIES TO THE PROCEEDING .................. ii
TABLE OF AUTHORITIES .............................. iv
OPINIONS BELOW ........................................... 1
STATEMENT OF JURISDICTION ................... 2
CONSTITUTIONAL AND STATUTORY
PROVISIONS AT ISSUE ................................... 2
INTRODUCTION ............................................... 6
STATEMENT OF THE CASE .......................... 15
REASONS FOR GRANTING THE WRIT ....... 21
CONCLUSION ............................................ 22, 23
APPENDIX A: .................................................. 1A
Sonnier v. Catholic Found. of Diocese of
Lafayette, No. 2019-C-0128, writ denied, (La.
2019) Not Designated for Publication ............. 2A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 18-C-289 (La. App. 3 Cir. 12/27/18)
Not Designated for Publication...................... 10A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 202 So.3d 992 (La. 2016)............... 27A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 215 So.3d 806 (La. App. 3rd Cir.
2016). .............................................................. 35A
Title 10 U.S.C. § 1482, et seq. ........................ 55A

iii

Louisiana's Interment Laws, La. R.S. 8:655, et
seq. .................................................................. 64A
Department of Defense Form 93 ................... 67A

TABLE OF AUTHORITIES
CASES
Alabama Power Company v. Davis, 431 U.S. 581
(1977) ........................................................... 13, 14
Armstrong v. Exceptional Child Ctr., Inc., 135
U.S. 1378 (2015) .............................................. 8, 9
Barker v. Kansas, 503 U.S. 594 (1992) ...... 12, 13
California v. ARC America Corp., 490 U.S. 93
(1989) ............................................................. 9, 10
Carroll v. Safford, 441 U.S. 671 (1845).............. 8
Crosby v. National Foreign Trade Council, 530
U.S. 363 (2000) .................................................. 10
Fishgold v. Sullivan Drydock & Repair Corp.,
328 U.S. 275 (1946) ........................................... 14
Hines v. Davidowitz, 312 U. S. 52 (1941) ..... 9, 10
Hisquierdo v. Hisquierdo, 439 U.S. 572 (1979) ....
............................................................................. 11
McCarty v. McCarty 453 U.S. 210 (1981)..............
..................................................................... 10, 11

iv

Middendorf v. Henry, 425 U.S. 25, 36 (1976) .. 13
Sonnier v. Catholic Found. of Diocese of
Lafayette, No. 2019-C-0128 writ denied, (La.
2019) .............................................................. 1, 19
Sonnier v. Catholic Found. of the Diocese of
Lafayette, 202 So.3d 992 (La., 2016) .......... 17, 18
Sonnier v. Catholic Found. of Diocese of
Lafayette, 18-289 (La. App. 3 Cir. 12/27/18) ...... 1
Sonnier v. Catholic Found. of Diocese of
Lafayette, 215 So.3d 806 (La. App. 3rd Cir.
2016)..............................................................16, 17
Trailmobile Co. v. Whirls, 331 U.S. 1328 (1947)...
........................................................................... 13
CONSTITUION, STATUTES, REGULATIONS,
AND TREATISES
U.S. Const. art. VI, cl.2 ....................................... 3
10 U.S.C. § 1482 .................................................. 3
La. R.S. 8:659 .................................................. 4, 5
La. R.S. 8:655 ...................................................... 5
The Federalist No. 33, p. 207 (J. Cooke ed.1961)..
............................................................................. 8
Chesterton, G. K. (1975). The Innocence of
Father Brown. New York: Penguin .................. 21

v

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully petitions the Court to
issue a writ of certiorari to review the decision
of the Supreme Court of Louisiana denying
discretionary review of the final Judgment of
the Court of Appeal for the Third Circuit of the
State of Louisiana. This case affords the Court
the opportunity to correct the state court's
misinterpretation and misapplication of Title 10
U.S.C. § 1482 in suits involving dis-interment of
deceased members of the United States Armed
Forces and, in so doing, re-affirm the sanctity
and supremacy of federal law over conflicting
state law.
OPINION AND JUDGMENT BELOW
The Supreme Court of Louisiana's denial of
discretionary review is reproduced at App. 2A.1
The opinion of the Louisiana Court of Appeal is
reproduced at App. 10A.2

Sonnier v. Catholic Found. of Diocese of Lafayette, No.
2019-C-0128, writ denied, (La. 2019) Not Designated for
Publication.
2 Sonnier v. Catholic Found. of Diocese of Lafayette, 18-C289 (La. App. 3 Cir. 12/27/18) Not Designated for
Publication.
1

1

STATEMENT OF JURISDICTION
On April 8, 2019, the Supreme Court of
Louisiana
entered
an
order
denying
discretionary review of the erroneous Judgment
entered by the Third Circuit Court of Appeal on
December 19, 2018. This Court has jurisdiction
over this matter pursuant to 28 U.S.C. §
1257(a), as the subject matter of this dispute is
the exercise of a title, right, or privilege under a
statute of the United States. Specifically, this
dispute addresses the right and privilege of a
designee to exercise the authority granted him
under 10 U.S.C. §1482 to direct disposition of
his son's remains. Petitioner timely filed this
petition for a writ of certiorari within ninety
days of the Supreme Court of Louisiana's
Judgment.
CONSTITUTIONAL AND STATUTORY
PROVISIONS AT ISSUE
Article I, Section 8 of the United States
Constitution grants Congress the power to raise
and strengthen armies, to provide and maintain
a navy, and to make rules for the government
and regulation of land and naval forces. State
laws are preempted by federal, congressional
authority when regulations concerning military

2

service members implicitly conflict. The basis
for implied conflict preemption, which is at
issue here, is the Supremacy Clause of the
United States Constitution, which provides, in
pertinent part, "This Constitution, and the laws
of the United States which shall be made in
pursuance thereof; and all treaties made, or
which shall be made, under the authority of the
United States, shall be the supreme law of the
land; and the judges in every state shall be
bound thereby, anything in the Constitution or
laws of any
State
to
the contrary
notwithstanding." U.S. Const. art. VI, cl.2.
Title 10 U.S.C. § 1482 provides service
members the right and privilege to appoint a
beneficiary to direct the disposition of their
remains. Specifically, Title 10 U.S.C § 1482
provides in pertinent part:
(c) The following persons may be designated
to direct disposition of the remains of a
decedent covered by this chapter:
(1) The person identified by the decedent on
the record of emergency data maintained by
the Secretary concerned (DD Form 93 or any
successor to that form), as the Person
Authorized to Direct Disposition (PADD),
regardless of the relationship of the designee
to the decedent. 10 U.S.C. § 1482

3

Concomitantly, Louisiana Revised Statute
8:655, "Right of disposing of remains; military
personnel; limitation of liability," fully
recognizes the rights of a deceased service
member's designee to direct the disposition of
the decedent's remains. It provides, in pertinent
part:
B.(1) Notwithstanding the provisions of
Subsection A of this Section, if the decedent
died in a manner described by 10 U.S.C.
(a)(1) through (8) while serving in any
branch of the United States Armed Forces,
the United States Reserve Forces, or
National Guard, and the decedent executed a
United States Department of Defense Record
of Emergency Data, known as DD Form 93,
or its successor form, the right to control
interment for the decedent shall devolve
upon the Person Authorized to Direct
Disposition, also referred to as the PADD, as
indicated on the DD Form 93 or its successor
form. La. R.S. 8:665(B)
However, in contravention of 10 U.S.C. §
1482, Louisiana Revised Statute 8:659,
"Permission to move remains," sets forth

4

Louisiana law regarding when and with whose
consent a body may be exhumed and relocated,
stating as follows:
A. The remains of a deceased person may be
moved from a cemetery space to another
cemetery space in the same cemetery or to
another cemetery with the consent of the
cemetery authority and the written consent
of one of the following, in the order named,
unless other specific directions, in the form
of a notarial testament or a written and
notarized declaration, have been given by
the decedent:
(1) The surviving spouse, if there is no
pending petition for divorce filed by either
spouse prior to the death of the decedent
spouse.
(2) A majority of the surviving adult children
of the decedent.
(3) A majority of the surviving adult
grandchildren of the decedent.
(4) The surviving parents of the decedent.
(5) A majority of the surviving adult siblings
of the decedent.
B. If the required consent cannot be
obtained, a final judgment of the district
court of the parish where the cemetery is
situated shall be required. La. R.S.8:659

5

Other pertinent provisions of 10 U.S.C. § 1482,
et seq. at App. 55A, and Louisiana's Interment
Laws, La. R.S. 8:655, et seq. are lengthy and
reprinted at App. 64A.
INTRODUCTION
This case concerns the United State's
commitment to honoring the final wishes of
military service members regarding the
disposition of their bodies upon their death:
whether state legislatures may circumvent or
ignore congressional authority and undermine
the right of a service member's designated
Person Authorized to Direct Disposition
regarding both internment and dis-internment
of the deceased service member’s remains.
As
demonstrated
herein,
congressional
authority indeed supersedes state legislative
provisions where there is a conflict between the
two, and such a conflict currently exists
between 10 U.S.C. § 1482 and Louisiana state
law governing exhumations, La. R.S. 8:659.
Federal law provides a means for fallen
service members to determine who shall be
responsible for the disposition of their remains.
As a matter of public policy, the final requests of

6

deceased service members should be honored
regardless of the state in which his or her
remains are laid to rest. When young men and
women enlist in the military, they routinely
execute forms expressing preferences that
guarantee benefits for themselves and their
families. At issue here is Department of Defense
Form 93 ("DD Form 93"), which allows a
serviceman to designate a Person Authorized to
Direct Disposition ("PADD"), the individual who
the service member empowers and entrusts
with making decisions regarding the handling
and burial of the soldier's remains should he or
she die in service of this country.
Louisiana R.S. 8:655 addresses the rights of
PADDs to dispose of the remains of a member
of the Armed Services. However, this state
statute does not specify whether the PADD has
the authority to dis-inter the decedent.
Louisiana Courts have held that La. R.S. 8:659
is the authority regarding dis-internment
because 10 U.S.C. §1482 does not specifically
address dis-internment within its text, just
"internment." As interpreted by the Louisiana
courts, La. R.S. 8:659 only permits a person
authorized in decedent’s will or a notarized
written declaration the power to exhume a
buried body if, and only if, the authorized

7

person obtains consent from the Louisiana
Cemetery Board and other family members.
This case presents a unique question of whether
the designated PADD is given the exclusive
authority to control both internment and disinternment pursuant to Title 10 U.S.C. § 1482,
and whether Louisiana law on dis-internment is
pre-empted by federal law pursuant to the
Supremacy Clause of the United States
Constitution.
Since 1845, this Court has employed the
Supremacy Clause doctrine. Since then, the
Supremacy Clause has been used to declare and
enforce federal congressional authority when a
conflict exists between federal and state law.3
Alexander Hamilton wrote that the Supremacy
Clause, "only declares a truth, which flows
immediately
and
necessarily
from
the
4
institution of a Federal Government." Giving
effect to Hamilton's interpretation of top-down
authority is the fundamental function of the
Supremacy Clause.
This guiding concept
remains true and is reflected in this Court’s
more recent analyses of the doctrine. As the late
Justice Scalia wrote, "And, as we have long
recognized, if an individual claims federal law
3 Carroll
4 The

v. Safford, 441 U.S. 671 (1845).
Federalist No. 33, p. 207 (J. Cooke ed.1961).

8

immunizes him from state regulation, the court
may issue an injunction upon finding the state
regulatory actions preempted."5 In that regard,
The Supremacy Clause provides protection
against state laws and regulations that
challenge or undermine federally created rights
and privileges, as in the present matter.
To determine if a state statute is preempted
by federal law under the Supremacy Clause,
congressional intent must be ascertained. This
Court has consistently held that if Congress
expressly intended to act in an area of law, the
federal law will preempt the state law.6 "In the
absence of an express statement by Congress
that state law is pre-empted, there are two
other bases for finding pre-emption. First, when
Congress intends that federal law occupy a
given field, state law in that field is pre-empted.
Second, even if Congress has not occupied the
field, state law is nevertheless pre-empted to
the extent it actually conflicts with federal law,
that is, when compliance with both state and
federal law is impossible or when the state law
'stands as an obstacle to the accomplishment
and execution of the full purposes and objectives
Armstrong v. Exceptional Child Ctr., Inc., 135 U.S. 1378
(2015).
6 California v. ARC America Corp., 490 U.S. 93 (1989).
5

9

of Congress'."7 Further, this Court has held
that even when a state law is not in direct
conflict with a federal law, the state law could
still be unconstitutional if the state law is an
obstacle to the accomplishment and execution of
Congress' full purposes and objectives."8
Similar to the issue here, regarding the
disposition of a fallen soldiers' remains under 10
U.S.C. §1481, this Court has found that military
retirement funds and the beneficiaries named
pursuant to 10 U.S.C. 3911 and 3929 preempt
state laws that frustrate the purpose of such
provisions. As this Court held in 2000,
application of California's "community property
principles to military retired pay threatens
grave harm to 'clear and substantial' federal
interests."9 As this Court reasoned in the
opinion in McCarty v. McCarty, 453 U.S. 210
(1981), California's prescribed community
property division of retired pay, by reducing the
amounts that Congress has determined are
necessary for retired service members, has the
potential to frustrate the congressional objective
7 Id.

at 100-101; quoting Hines v. Davidowitz, 312 U. S. 52,
67 (1941).
8 Crosby v. National Foreign Trade Council, 530 U.S. 363
(2000).
9 McCarty v. McCarty, 453 U.S. 210, 212 (1981).

10

of providing for the retired service member.10 In
addition, such a division has the potential to
interfere with the congressional goals of having
the military retirement system serve as an
inducement for enlistment and re-enlistment
and as an encouragement to orderly promotion
and a youthful military.11 This decision was
based on a previous ruling where the Court
held, "[s]tate family and family-property law
must do 'major damage' to 'clear and
substantial' federal interests before the
Supremacy Clause will demand that state law
be overridden.”12 "The 'critical terms' of the
federal statute relied upon in reaching that
conclusion included provisions establishing 'a
specified beneficiary’."13
Analogous to the appointment of a military
retirement beneficiary, DD Form 93 allows
members of the military to designate a PADD,
who is thereby entitled not only to direct the
disposition of the service member's remains, but
receives reimbursement for certain expenses
10 Id.
11 Id.

Hisquierdo v. Hisquierdo, 439 U.S. 572, 581 (1979). (In
this case, the Court decided the federal Railroad
Retirement Act of 1974 could not be divided under state
community property laws.)
13 McCarty v. McCarty, 453 U.S. 210, 220 (1981).
12

11

associated with burial and other valuable
benefits as well, such as receipt of a formally
presented U.S. flag. DD Form 93 states its
purpose as follows: "For military personnel,
[this form] is used to designate beneficiaries for
certain benefits in the event of the Service
member's death."14 Item 13(a) of DD Form 93
instructs the service member to, "Enter the
name and relationship of the Person Authorized
to Direct Disposition (PADD) of your remains
should you become a casualty."15 The form
continues to advise, "Only the following persons
may be named as a PADD: surviving spouse,
blood relative of legal age, or adoptive relatives
of the decedent. If neither of these three can be
found, a person standing in loco parentis may be
named."16
As this Court has held, federal law protecting
military beneficiaries and the benefits and
rights afforded to them shall not be weakened
by state laws. "[D]enials of traditional rights to
any group should not be approved without
examination, especially when the group
Department of Defense Form 93, Reproduced at App.
67A
15 Department of Defense Form 93, Reproduced at App.
67A
16 Department of Defense Form 93, Reproduced at App.
67A
14

12

comprises members of the military, who are
engaged in an endeavor of national service,
frequently fraught with both danger and
sacrifice."17 "[L]egislation is to be liberally
construed for the benefit of those who left
private life to serve their country in its hour of
great need. . . . And no practice . . . can cut down
the service adjustment benefits which Congress
has secured the veteran under the Act."18
However, as interpreted by Louisiana state
courts, Louisiana law threatens a service
member's right to designate a PADD whose
wishes should be executed without hindrance or
opposition by state law. As it stands, Louisiana
law only allows a testamentary designee direct
control of dis-internment with the consent of the
Louisiana Cemetery Board. Because this law,
La. R.S. 8:659, obstructs the rights of a military
beneficiary under 10 U.S.C. §1482, this Court
17 Barker

v. Kansas, 503 U.S. 594, 598 (1992)
Fishgold v. Sullivan Drydock & Repair Corp., 328 U.S.
275, 285 (1946); Trailmobile Co. v. Whirls, 331 U.S. 1328
(1947); Alabama Power Company v. Davis, 431 U.S. 581
(1977). (These cases deal with various violations of the
Military Selective Service Act of 1917. The Supreme
Court consistently held in these cases that military
benefits should favor the service member over their
employer.)
18

13

should accept this opportunity to identify and
correct the state law’s interference with a
federally granted right and privilege.
The benefits provided by Congress pursuant
to 10 U.S.C. § 1482 are frustrated and
weakened by Louisiana Courts' interpretation of
a PADD's rights with regard to dis-internment,
as will from time to time be necessary to give
full effect to the deceased service member's
wishes for the repose of his body.
The
Supremacy Clause affords relief in this
situation because La. R.S. 8:659 frustrates the
rights bestowed upon PADDs by 10 U.S.C. §
1482, thus undermining Congress' clear intent,
purposes and objectives in this area of law.
STATEMENT OF THE CASE
I. Factual Background
Eugene Sonnier, III ("Trey Sonnier"), the son
of Petitioner, Eugene J. Sonnier, II ("Mr.
Sonnier"), tragically died at the young age of
nineteen on October of 27, 2013 while serving
honorably on active duty status in the United
States Air Force. Prior to his death, Trey
executed Department of Defense Form 93,
which allows military members to designate a

14

Person Authorized to Direct Disposition
("PADD") pursuant to 10 U.S.C. § 1482. Trey
Sonnier chose his father, Mr. Sonnier, to be his
sole PADD if he were to die while in service of
the United States Air Force. Trey Sonnier
trusted his father, who is a mortician by trade,
to give him a burial and gravesite fitting of
someone who made the ultimate sacrifice for his
country. Following Trey Sonnier's death, Mr.
Sonnier purchased a plot at Calvary Cemetery
in Lafayette Parish, Louisiana where he and his
family held Trey's Sonnier's mournful funeral.
Trey Sonnier’s remains were laid to rest in that
burial plot on November 4, 2013.
Prior to Trey Sonnier's funeral, Mr. Sonnier
advised the Calvary Cemetery manager that his
plan was to construct a double tomb so he could
ultimately be buried next to his son and
indicated his intent to purchase the two
adjacent plots as necessary for building the
tomb he had envisioned. Before Mr. Sonnier
returned to the cemetery to purchase the
adjacent plots, his ex-wife and Trey's mother,
Mrs. Norlet Pierre ("Mrs. Pierre"), purchased
the adjacent plots for herself and her spouse.
Thus, Mr. Sonnier lost the opportunity to
purchase the plots for himself and execute his
authority as Trey Sonnier's PADD--at least with
regard to his son's present burial location.

15

Although Mr. Sonnier was the sole purchaser of
Trey Sonnier's plot, the title to the plot was
reissued jointly to Mrs. Pierre and Mr. Sonnier
against his wishes.
II. Procedural History
On December 16, 2014, Mr. Sonnier filed suit
in the 15th Judicial District Court of Lafayette
Parish against Mrs. Pierre, The Catholic
Foundation of the Diocese of Lafayette, owner
and operator of the cemetery, and other entities
that may have ownership interest in the
cemetery. Mr. Sonnier's Petition for Recognition
of Ownership and Injunctive Relief alleged that
the defendants interfered with his right to
direct the disposition of his son's remains by
selling the plots of land to Mrs. Pierre. Mr.
Sonnier argued that his stated intention to
purchase the plots adjacent to his son’s was
sufficient to revoke the purchase Mrs. Pierre
made, and that the cemetery violated his rights
as Trey Sonnier's PADD.
The trial court
sustained the defendants' Motion to Dismiss for
no cause of action. Mr. Sonnier appealed that
decision to the Louisiana Third Circuit Court of
Appeal, and on April 13, 2016, the appeal court
issued an opinion affirming the trial court's

16

ruling.19
Mr. Sonnier then applied to the
Supreme Court of Louisiana for issuance of a
writ.
On October 28, 2016, the Louisiana Supreme
Court affirmed the Third Circuit's affirmation of
the lower Court's dismissal of the action for lack
of a cognizable cause of action regarding the
ownership of the cemetery plots.20 However, the
Court remanded the case to the district court to
give Mr. Sonnier an opportunity to amend his
petition to state a cause of action for reinterment pursuant to La. R.S. 8:659, which
would provide Mr. Sonnier alternate relief by
permitting him to move Trey Sonnier's remains
to a different location where he could build the
tomb Mr. Sonnier initially intended.
Despite the adverse ruling as to the property
dispute, the majority opinion of the Supreme
Court of Louisiana stated, “Trey honorably
served this country as a member of the United
States Air Force. Our service men and women
work every day to protect and defend this
Sonnier v. Catholic Found. of Diocese of Lafayette, 215
So.3d 806 (La. App. 3rd Cir. 2016). Reproduced at App.
35A
20 Sonnier v. Catholic Found. of Diocese of Lafayette, 202
So.3d 992 (La. 2016). Reproduced at App. 27A
19

17

nation, and put their lives at risk for the benefit
of all of us. As such, these brave men and
women necessarily rely on the validity of their
formal designations, and should be able to trust
that their wishes will be honored in the event
their lives are lost in the line of duty. Here, it is
undisputed that Trey specifically designated
Mr. Sonnier as the sole PADD. Trey did not
choose his mother as co-designee. Thus, Trey
trusted Mr. Sonnier to independently make all
decisions relative to his burial.”21
Acting in his capacity as Trey Sonnier's loving
father and sole PADD, Mr. Sonnier amended his
petition to reflect his desire to exhume his son's
remains from the current cemetery and re-inter
his casket at an appropriate alternate location
of his choosing. On remand, the Louisiana
Cemetery Board intervened as a third party of
interest, opposing the dis-internment of Trey
Sonnier's body. This intervention occurred
because, pursuant to La. R.S. 8:569 and its
current interpretation by Louisiana courts, the
Board must authorize any dis-internment of
remains already buried.
In August of 2017, Mr. Sonnier filed a Petition
for Declaratory Judgment seeking authorization
21 Id.

at 993 (La. 2016) [original emphasis].

18

to dis-inter his son's remains. After the hearing,
the trial court denied Mr. Sonnier's request for
declaratory judgment. Mr. Sonnier appealed
that decision to the Louisiana Third Circuit
Court of Appeals. The sole assigned error stated
in his appeal brief was that the trial court
erroneously interpreted La. R.S. 8:659 and
failed to acknowledge his right and privilege to
disinter his son's remains under his authority
as PADD under federal law, 10 U.S.C. § 1482.
The Third Circuit Court of Appeal upheld the
trial court's decision.
Mr. Sonnier applied for review by the
Supreme Court of Louisiana for the second
time. Although Mr. Sonnier's writ application
was denied by a majority of the court, Chief
Justice Bernette Johnson of the Louisiana
Supreme Court dissented and assigned reasons
why she would grant the writ. Chief Justice
Johnson stated in her reasons, "Giving Trey's
PADD directive the broad deference it deserves,
I would find Mr. Sonnier is legally entitled to
move his son's remains to a burial location of
his choice. I find it outrageous to suggest that
La. R.S. 8:659 supersedes 10 U.S.C. § 1482."22
Sonnier v. Catholic Found. of Diocese of Lafayette, No.
2019-C-0128, writ denied, (La. 2019) Not Designated for
Publication
22

19

Chief Justice Johnson's poignant dissent
reflects the outcome best supported by federal
jurisprudence in similar situations of conflict
between state and federal law.
REASONS FOR GRANTING THE WRIT
This Case Presents a Unique and Vital
Question of National Importance
Regarding Military Internment Rights.
Our nation takes great pride in respecting and
honoring the sacrifices of the men and women
who serve in the U.S. Armed Forces. Soldiers,
airmen, and seamen willing to lay down their
lives in service of our country are heralded as
heroes to all Americans. Laws enacted to benefit
military members serve an important function
by recognizing and expressing gratitude for acts
of heroism and sacrifice in military service and
foster morale among service members who carry
out their duties with the knowledge that their
final wishes will be carried out if tragedy were
to strike. However, Congress' purposes and
objectives related to incentivizing participation
in a young and vibrant military--a military that
reliably honors its fallen and their families-cannot be achieved if state laws are permitted
to undermine any aspect of the benefits

20

bestowed upon the fallen. As G.K. Chesterton
wrote, “The true soldier fights not because he
hates what is in front of him, but because he
loves what is behind him.”23 Rewarding such
true soldiers' wishes certainly requires
respecting their wishes in handling their
remains.
As this case demonstrates, current Louisiana
law and its interpretation by the Louisiana
courts usurps the final wishes of fallen
servicemen and their families because it
imposes additional burdens and requirements
on PADDs that are not present in 10 U.S.C. §
1482. The additional state law burdens and
unlawfully limits or, as here, completely
undermine a PADD's authority to direct the
ultimate disposition of the decedent's remains-not just the initial disposition of such precious
remains. To hold otherwise would allow the
dictates of a state administrative body of
unelected officials, the cemetery board, to
determine when and how federal law grants
service members the right to designate an
individual to direct the handling of their
remains. This certainly offends and frustrates

23 Chesterton,

G. K. (1975). The Innocence of Father Brown.
New York: Penguin.

21

Congress' intent in passing Title 10 U.S.C. §
1482 et seq.
As currently interpreted, La. R.S. 8:659 only
allows a PADD the right to dis-intern the
decedent's remains
if the PADD is the
testamentary designee and if the Louisiana
Cemetary Board consents. This should not be.
La. R.S. 8:659 should not undermine the
authority of Trey Sonnier’s rights under 10
U.S.C. § 1481. That authority was bestowed
and belongs exclusively to his father.
Congressional intent to provide benefits to
military members supersedes state law, just as
Mr. Sonnier’s authority to honor his son in the
manner he chooses should supersede the
authority of a testamentary designee and the
Louisiana Cemetery Board. Eugene "Trey"
Sonnier, III, honorably served his country and
the benefits Congress intended to provide his
grieving father should be affirmed and upheld
by this Honorable Court.
CONCLUSION
Therefore, Petitioner respectfully maintains
that this Honorable Court should review this
dispute to affirm the supremacy of federal law

22

in this area, and ultimately respect and honor
the final request of the fallen.
Respectfully Submitted,
s/ G.Karl Bernard
G. Karl Bernard
Counsel of Record
G. Karl Bernard & Associates
1615 Poydras Street, Suite 101
New Orleans, Louisiana, 70112
(504) 412-9953
Counsel for Petitioner

23

TABLE OF CONTENTS
APPENDIX : ..................................................... 1A
Sonnier v. Catholic Found. of Diocese of
Lafayette, No. 2019-C-0128, writ denied, (La.
2019) Not Designated for Publication ............... 2A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 18-C-289 (La. App. 3 Cir. 12/27/18)
Not Designated for Publication ....................... 10A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 202 So.3d 992 (La. 2016).. .............. 27A
Sonnier v. Catholic Found. of Diocese of
Lafayette, 215 So.3d 806 (La. App. 3rd Cir.
2016). ................................................................ 35A
Title 10 U.S.C. § 1482, et seq.. ......................... 55A
Louisiana's Interment Laws, La. R.S. 8:655, et
seq ..................................................................... 64A
Department of Defense Form 93 ..................... 67A

1A

EUGENE J. SONNIER, II
v.
THE CATHOLIC FOUNDATION OF THE
DIOCESE OF LAFAYETTE, ET AL.
NO. 2019-C-0128
SUPREME COURT OF LOUISIANA
April 8, 2019
ON WRIT OF CERTIORARI TO THE
COURT OF APPEAL, THIRD CIRCUIT,
PARISH OF LAFAYETTE
JOHNSON, C.J. would grant
application and assigns reasons.

the

writ

Eugene Sonnier, III ("Trey"), the son of
applicant, Eugene J. Sonnier, II ("Mr. Sonnier"),
and his ex-wife, Norlet Pierre ("Mrs. Pierre"),
died in October 2013 while serving in the United
States Air Force. Prior to his death, Trey
executed Department of Defense Form 93 which,
among other things, allows military members to
designate the "person authorized to direct
disposition" ("PADD"). Mr. Sonnier was listed as
the PADD on Form 93, and thus was the person
authorized to make funeral and burial
arrangements for Trey. If our goal is to respect
2A

the wishes of military personnel who sacrifice
their lives for our country, the results of this case
directly disrespect the dictates and wishes of the
deceased, and purposefully thwart Mr. Sonnier's
plans for his son's burial.
Following Trey's death, Mr. Sonnier met with
the cemetery manager and purchased a plot as
Trey's burial place. Mr. Sonnier further advised
the manager that his plan was to construct a
double tomb so he could be buried next to his
son, and indicated his intent to purchase the two
adjacent plots that were necessary to construct
the double tomb. Before Mr. Sonnier could
return to purchase the plots, Mrs. Pierre
purchased the adjacent plots for herself and her
spouse. In addition, although Mr. Sonnier was
the sole purchaser of Trey's plot, the title to the
plot was re-issued jointly to Mr. Sonnier and
Mrs. Pierre.
Mr. Sonnier initially filed suit against several
parties essentially asserting sole ownership of
the plots or, alternatively, seeking permission to
move Trey's remains since he had the exclusive
right to control his son's interment by virtue of
his authority under Form 93. When he was not
able to obtain the desired relief in that action,
Mr. Sonnier filed a Petition for Declaratory
Judgment
asserting
that
Trey's
PADD
3A

authorized him to disinter Trey and re-inter him
in a location of his choice. In my view, Mr.
Sonnier is entitled to this relief.
There is no question Mrs. Pierre's actions have
prevented Mr. Sonnier from being buried next to
Trey in a double tomb, and thus Trey's PADD
designation empowering Mr. Sonnier to control
Trey's interment has been violated. 10 U.S.C. §
1482, which governs the PADD, provides in
pertinent part:
(c) The following persons may be designated to
direct disposition of the remains of a
decedent covered by this chapter:
(1) The person identified by the decedent on the
record of emergency data maintained by the
Secretary concerned (DD Form 93 or any
successor to that form), as the Person Authorized
to Direct Disposition (PADD), regardless of the
relationship to the decedent. [Emphasis added].
Comparable Louisiana law provides that the
PADD has the right to control interment. At the
time of Trey's death, La. R.S. 8:655 provided, in
pertinent part:
A. The right to control interment, as defined in
R.S. 8:1(26), of the remains of a deceased person,
4A

unless other specific directions have been given
or the designation of a specific person to control
disposition has been made by the decedent in the
form of a written and notarized declaration,
vests in and devolves upon the following in the
order named:
***
B. (1) If the decedent died in a manner described
by 10 U.S.C. § 1481(a)(1) through (8) while
serving in any branch of the United States
Armed Forces, the United States Reserve Forces,
or National Guard, and the decedent executed a
United States Department of Defense Record of
Emergency Data, known as DD Form 93, or its
successor form, the right to control interment
for the decedent shall devolve upon the
Person Authorized to Direct Disposition,
also referred to as the PADD, as indicated
on the DD Form 93 or its successor form.
[Emphasis added].
La. R.S. 8:1 (26) defines "interment" as "the
disposition of human remains by inurnment,
scattering, entombment, or burial in a place used
or intended to be used, and dedicated, for
cemetery purposes." In my view, there is nothing
in La. R.S. 8:655 or in the statutory definition of

5A

"interment" which limits the PADD's authority
to the choice of initial disposition of the remains.
In denying relief to Mr. Sonnier, the court of
appeal found disinterment was controlled by La.
R.S. 8:659, which provides, in pertinent part:
A. The remains of a deceased person may be
moved from a cemetery space to another
cemetery space in the same cemetery or to
another cemetery with the consent of the
cemetery authority and the written consent of
one of the following, in the order named, unless
other specific directions, in the form of a notarial
testament or a written and notarized
declaration, have been given by the decedent:
(1) The surviving spouse, if there is no pending
petition for divorce filed by either spouse prior to
the death of the decedent spouse.
(2) A majority of the surviving adult children of
the decedent.
(3) A majority of the surviving
grandchildren of the decedent.

adult

(4) The surviving parents of the decedent. (5) A
majority of the surviving adult siblings of the
decedent.
6A

B. If the required consent cannot be obtained, a
final judgment of the district court of the parish
where the cemetery is situated shall be required.
The court of appeal concluded Mr. Sonnier did
not meet the requirements of the statute.
Sonnier v. Catholic Found. of Diocese of
Lafayette, 18-289 (La. App. 3 Cir. 12/27/18), 261
So. 3d 965, 968. Relying on its earlier opinion in
Mr. Sonnier's initial case, the court explained
that because this statute does not reference
Form 93, Mr. Sonnier was not authorized by the
PADD to disinter his son's remains. Thus, based
on La. R.S. 8:659, after Trey's initial burial, the
court determined the voluntary consent of the
cemetery authority was statutorily required
before Trey's remains could be disinterred and
transferred. Id.
I strongly disagree that Mr. Sonnier is required
to obtain consent from the cemetery, or Mrs.
Pierre, in order to move Trey's remains. As I
wrote in my concurrence in this court's action on
Mr. Sonnier's original writ application:
In my view, requiring the consent of the
cemetery pursuant to La. R.S. 8:659 violates Mr.
Sonnier's PADD rights. 10 U.S.C. § 1482, which
governs the PADD, provides the PADD is
designated "to direct disposition of the remains
7A

of a decedent." Comparable Louisiana law
provides that the PADD has the right to control
interment. Mr. Sonnier's decision pursuant to his
PADD power to control Trey's interment
included the plan that they be buried next to
each other in a double tomb. Thus, based on the
specific facts of this case, Mr. Sonnier's PADD's
authority in this case cannot be limited to the
choice of initial disposition of the remains. Thus,
any refusal to allow re-interment would impede
Mr. Sonnier's PADD authority.
Sonnier v. Catholic Found. of the Diocese of
Lafayette, 16-0839 (La. 10/28/16), 202 So. 3d 992,
994 (J, additionally concurring). I am of the same
opinion today. Mr. Sonnier's "right to control"
Trey's interment was directly undermined by
Mrs. Pierre's purchase of the two adjaent plots.
Thus, unless Mr. Sonnier is allowed to disinter
and re-inter Trey's remains, his authority to
control the disposition of Trey's remains granted
to him by Form 93 will be usurped.
Trey honorably served this country as a member
of the United States Air Force. Our service men
and women work every day to protect and defend
this nation, and put their lives at risk for the
benefit of all Americans. These brave men and
women necessarily rely on the validity of their
formal designations, and should be able to trust
8A

that their wishes will be honored in the event
their lives are lost in the line of duty. Here, it is
undisputed that Trey specifically designated Mr.
Sonnier as the sole PADD. Trey could have
chosen his mother, but did not do so. Thus, Trey
trusted Mr. Sonnier to make all decisions
relative to his burial. Mr. Sonnier chose and
purchased a burial plot for Trey and planned to
be buried next to his son in a double tomb.
However, Mrs. Pierre's actions have impeded Mr.
Sonnier's authority and undermined his decision.
Giving Trey's PADD directive the broad
deference it deserves, I would find Mr. Sonnier is
legally entitled to move his son's remains to a
burial location of his choice. I find it outrageous
to suggest that La. R.S. 8:659 supercedes 10
U.S.C. § 1482. If Mrs. Pierre could not control
her son's burial, she likewise should not be
allowed to have any vote on her son's
disinterment and reburial.

9A

EUGENE J. SONNIER, II
v.
THE CATHOLIC FOUNDATION OF THE
DIOCESE OF LAFAYETTE, ET AL.
18-289
STATE OF LOUISIANA COURT OF
APPEAL, THIRD CIRCUIT
December 19, 2018
NOT DESIGNATED FOR PUBLICATION
APPEAL FROM THE FIFTEENTH JUDICIAL
DISTRICT COURT PARISH OF LAFAYETTE,
NO. 20146291 HONORABLE MICHELLE M.
BREAUX, DISTRICT JUDGE
JOHN D. SAUNDERS JUDGE
Court composed of John D. Saunders, Marc T.
Amy, and Elizabeth A. Pickett, Judges.
AFFIRMED.
Amy, J., concurs and assigns
Pickett, J., dissents and assigns reasons.
The plaintiff appeals the trial court's denial of
his request for a declaratory judgment ordering
10A

the defendants to allow him to move the remains
of his son from where he is currently interred to
another location.
FACTS & PROCEDURAL BACKGROUND
Following the remand of this matter to the trial
court by the supreme court, it is before this court
for the second time. See Sonnier v. Catholic
Found. of the Diocese of Lafayette, 15-1051
(La.App. 3 Cir. 3/2/16), 215 So.3d 804, writ
denied in part; writ granted in part, 16-839 (La.
10/28/16), 202 So.3d 992. Eugene Sonnier, III
(Trey), died in October 2013 while serving in the
United States Air Force. Prior to his death, Trey
executed a United States Department of Defense
Record of Emergency Data Form 93 that
designated his father Eugene Sonnier, II, as the
Person Authorized to Direct the Disposition
(PADD) of his body upon his death
Sonnier originally filed suit to move Trey's
remains from Calvary Cemetery in Lafayette
after the alleged actions of others prevented him
from completing his plan for Trey's interment.
He alleged in that petition that he planned for he
and Trey to be interred side by side in Calvary
Cemetery with a double tomb constructed over
their graves. According to his pleadings, his plan
required that he purchase three cemetery plots
11A

to accommodate the tomb. Sonnier contends that
his plan was thwarted when Norlet Pierre,
Trey's mother and his ex-wife, and her husband
purchased the three cemetery plots before he
returned to the cemetery to pay for them. The
record indicates that because of the conflict
between he and the Pierres regarding the
ownership of the three plots, Sonnier asked
Saint Genevieve Catholic Church, the cemetery's
owner, to retitle the plots purchased by the
Pierres in his name. The Church's representative
refused, and Sonnier filed suit.
In his initial suit, Sonnier sought to have the
plots retitled in his name, or alternatively, to
relocate Trey's remains because he was unable to
obtain the consent of the church, as required by
the cemetery's rules and La.R.S. 8:659, which
governs the relocation of the remains of a
deceased person. The defendants filed exceptions
of no cause of action, asserting that Trey's PADD
authorized Sonnier to direct the disposition of
Trey's remains but did not dictate the ownership
of the burial plot in which he was buried. The
exceptions were granted by the trial court, and
this court affirmed that judgment. Sonnier, 215
So.3d 804.
Sonnier filed an application for writ of certiorari
with our supreme court. On review, the supreme
12A

court affirmed the grant of the defendants'
exceptions of no right of action for recognition of
ownership, injunctive relief, or damages.
Sonnier, 202 So.3d 992. The supreme court
concluded, however, that the trial court's ruling
was unclear as to whether it made a
determination as to Sonnier's alternative claim
for re-interring Trey as provided in La.R.S.
8:659. Id at 993-94. The supreme court found
that "Sonnier failed to allege he requested
consent from the cemetery authority for the reinterment or that such consent was requested
but wrongfully withheld by defendants, pursuant
to La. R.S. 8:659." Id. at 993. To allow Sonnier to
correct this defect, the court remanded the
matter to the trial court to give him "an
opportunity to amend his petition to state a
cause of action for re-interment pursuant to
La.R.S. 8:659." Id. at 993-94.
After the matter was remanded, the Louisiana
Cemetery Board intervened as a third party of
interest, alleging that it has standing in this
matter because it is charged with enforcing and
administering the provisions of Title 8. La.R.S.
8:66. Shortly thereafter, Sonnier voluntarily
dismissed his claims against Ms. Pierre and the
cemetery. Subsequently, in August 2017, Sonnier
filed a Petition for Declaratory Judgment in

13A

which he named Saint Genevieve Roman
Catholic Church, Ms. Pierre, and the Louisiana
Cemetery Board as defendants. According to
Sonnier's petition, Saint Genevieve initially
consented to allow him to disinter Trey's
remains, but then withdrew its consent to the
agreement. Sonnier further alleged that
pursuant to state and federal law, Trey's PADD
authorized him to disinter Trey and re-inter him
in a location of his choice.
After a hearing, the trial court denied Sonnier's
request for declaratory judgment ordering
defendants to allow him to move the remains of
his son from where he is currently interred to
another location. Sonnier now appeals the trial
court's judgment.
DISCUSSION OF THE MERITS:
In his sole assignment of error, Sonnier argues
that the trial court erred in denying his request
for declaratory judgment. He bases his argument
upon the contention that the trial court
erroneously interpreted La.R.S. 8:659 Louisiana's disinterment and reinterment
statute - which he asserts authorizes him to
direct the disinterment or re-interment of his
remains, by virtue of his designation as his son's
PADD.
14A

In Sonnier, 215 So.3d at, 812-13, this court
stated: Disinterment
[B]y the second amending petition, Mr. Sonnier
alternatively sought permission to have his son's
body moved to another location within Calvary
Cemetery "based on all information presented
herein which illustrate that Eugene Sonnier, II's
rights have been vastly undermined." To the
extent the trial court's ruling encompassed this
alternative demand, we again leave that claim
undisturbed. Instead, 10 U.S.C. § 1482 (c)
permits the PADD to "direct disposition of the
remains of a decedent[.]" The statute is silent on
the right to later disinter those remains.
A. The remains of a deceased person may be
moved from a cemetery space to another
cemetery space in the same cemetery or to
another cemetery with the consent of the
cemetery authority and the written consent of
one of the following, in the order named, unless
other directions in writing have been given by
the decedent:
(1) The surviving spouse, if no petition for
divorce has been filed by either spouse prior to
the death of the decedent spouse.

15A

(2) The surviving adult children of the decedent,
not including grandchildren or other more
remote descendants.
(3) The surviving parents of the decedent. (4)
The surviving adult brothers and sisters of the
decedent.
B. If the required consent cannot be obtained, a
final judgment of the district court of the parish
where the cemetery is situated shall be required.
This provision makes no reference to Form 93.
Additionally,
in
Spiess
v.
Greenwood
Development Co., Inc., 542 So.2d 810, 813 (La.
App. 3 Cir. 1989), a panel of this court made the
distinction between a party having the legal
authority "to control the disposition of the
remains of a deceased person" pursuant to
La.R.S. 8:655 and the person(s) having authority
to direct the relocation of a deceased's remains
per La.R.S. 8:659. Referencing those statutes the
panel explained that the plaintiff in that case
"clearly had the sole statutory authority to
initially determine the decedent's final resting
place. However, after the decedent's initial
burial, the voluntary consent of the defendant
cemetery authority was also statutorily required
before the decedent's remains could be
disinterred and transferred." Id. Notably, while
16A

La.R.S. 8:655 includes a reference to the PADD
on Form 93, La.R.S. 8:659 includes no such
reference.
Based upon this reasoning, this court concluded
that Sonnier was not authorized by the PADD to
disinter his son's remains. The ruling made clear
that La.R.S. 8:659 controls disinterment. We
agree with this holding and reach the same
conclusion, that is, that La.R.S. 8:659 controls
reinterment, and based on the record before us,
we conclude that Sonnier is not entitled to
disinterment of his son's remains.
CONCLUSION:
Eugene Sonnier, II raised one assignment of
error, asserting that the trial court erred in
denying his request for a declaratory judgment
ordering Defendants to allow him to move the
remains of his son from where he is currently
interred to another location. We hold that
La.R.S. 8:659 controls the reinterment of human
remains,
and the record establishes that Eugene Sonnier,
II has not met the requirement of La. R.S. 8:659.
Accordingly, we affirm the trial court's denial of
Eugene Sonnier, II's Petition for Declaratory
Judgment.
17A

We assess all costs of this appeal to Eugene
Sonnier, II.
AFFIRMED
This opinion is NOT DESIGNATED FOR
PUBLICATION. Uniform Rules- Courts of
Appeal,
Rule
2-16.3.
AMY, Judge, concurring.
Although I join the lead opinion in this case, I
write separately in order to further address Mr.
Sonnier's assertion that the "[d]ecision from the
Louisiana Supreme Court unequivocally stated
that Eugene Sonnier, II had the sole and
exclusive authority to re-inter Eugene Sonnier,
III[.]" (Emphasis removed.)
Reference to the supreme court's ruling confirms
that it did, in fact, provide Mr. Sonnier with an
opportunity to state a cause of action for reinterment pursuant to La.R.S. 8:659. Sonnier v.
Catholic Found. of the Diocese of Lafayette, 160839 (La. 10/28/16), 202 So.3d 992. However, I do
not read that opinion to determine that, given
further amendment to the pleading, Mr. Sonnier
would have a cause of action given his status as
the PADD sole designee and absent the
remaining considerations of La.R.S. 8:659.
18A

Instead, by its precise wording, the supreme
court recognized that the trial court had not
made a determination in that regard and further
explained that providing Mr. Sonnier "an
opportunity to proceed with his action for reinterment" would provide broad deference to the
PADD designation. Sonnier, 712 So.2d at 993.
As Mr. Sonnier has now filed a Petition for
Declaratory Judgment in that regard, on the
merits of that claim I find that the trial court
correctly denied that plea. As recognized by the
lead opinion, the record before the court
indicates that Mr. Sonnier has not demonstrated
entitlement to relief under La.R.S. 8:659.
Pickett, J., dissenting.
Subsection B of La.R.S. 8:655 provides that
when, pursuant to 10 U.S.C.A. § 1482, a
decedent who served in the military had
completed a United States Department of
Defense Record of Emergency Data Form 93 that
designated a Person Authorized to Direct the
Disposition (PADD), "the right to control
interment for the decedent shall devolve upon . .
. the PADD." The majority concludes that
because 10 U.S.C.A. § 1482 does not reference
disinterment and reinterment and La.R.S. 8:659
19A

makes no reference "to the PADD on Form 93,"
Trey's PADD did not authorize Mr. Sonnier to
move Trey's remains. In my view, neither of
these facts affect Mr. Sonnier's claim.
Subsections A and B of Section 655 grant
specified persons "the right to control
interment." Section 659 specifies whose consent
must be obtained to move buried remains. The
majority concludes that because a PADD's
consent is not required by Section 659, a PADD
has no authority to move buried remains. In my
view, Trey's PADD gave Mr. Sonnier the sole
right to seek a judgment authorizing the removal
and relocation of Trey's remains.
This issue is de novo. Two cases, however, have
addressed the "other directions" provision of
Section 659. In Byrd v. Byrd, 488 So.2d 1134
(La.App. 2d Cir.), writ denied, 491 So.2d 23
(La.1986), the court determined that the
decedent's repeated statements to his family
members that he wanted to be buried next to his
grandfather satisfied the "other directions"
requirement of Section 659. When Byrd was
decided, Section 659 did not require that the
"other directions" be in writing.
In Pittman v. Magic City Memorial Co., 07-1567
(La.App. 1 Cir. 3/26/08), 985 So.2d 156, the
20A

decedent's girlfriend filed suit to have the
decedent's remains moved to another cemetery.
The decedent had been buried over the
girlfriend's objections under the direction of his
ex-wife and children. The girlfriend sued the
cemetery, and the decedent's ex-wife and
children attempted to block the move. In his will,
the decedent directed that the plaintiff "take
charge of and make all of my funeral and burial
arrangements which are to be carried out under
her sole direction and in her sole discretion." The
decedent also granted her "the sole discretion as
to the place of my burial which I intend to be
Ponemah Cemetery in Bogalusa, Louisiana." The
trial court granted judgment in favor of the
plaintiff, and the first circuit affirmed the
judgment, explaining:
The trial court determined that [the decedent]
gave sole authority and discretion to plaintiff to
direct the place of his burial when he wrote his
last will and testament. We find no manifest
error in this determination. Likewise, we find no
error in the trial court's application of LSA-R.S.
8:659, because that statute clearly exempts the
family's consent requirements when the decedent
has made other written directions. Id. at 159
(emphasis added).

21A

Trey did not indicate in his PADD where he
wanted to be buried. However, as the supreme
court noted, "it is undisputed that Trey
specifically designated Mr. Sonnier as the sole
PADD. Trey did not choose his mother as codesignee. Thus, Trey trusted Mr. Sonnier to
independently make all decisions relative to his
burial." Sonnier, 202 So.3d at 993. For this
reason, I believe Trey's Form 93 relieved Mr.
Sonnier from having to obtain Ms. Pierre's
consent. Pittman, 985 So.2d 156. Furthermore,
even if it is determined that Section 659 requires
Ms. Pierre's consent, for the reasons discussed
below, I find that her and her husband's actions
relieved Mr. Sonnier of fulfilling that
requirement.
This case differs from Byrd and Pittman in that
Mr. Sonnier initially consented to Trey's burial
in Calvary Cemetery. Section 659 provides that
"a deceased person may be moved." For purposes
of statutory construction, "the word 'may' is
permissive. La.R.S. 1:3. Historically, "[t]he
disturbance of the remains of the dead, except
for lawful necessary purposes" has been
discouraged. Choppin v. Dauphin, 48 La. Ann
1217, 1220, 20 So 681, 682 (1896). See also,
Bunol v. Bunol,12 La.App. 675, 127 So. 70
(La.App.Orl.Cir.1930); Bradley v. Burgis, 25

22A

So.2d 753 (La.App.Orl.Cir.1946); Matter of
Dufour, 622 So.2d 1181, 1185 (La. Ct. App.
1993). Consequently, requests for moving a
decedent's remains have been generally been
denied.
In Spiess v. Greenwood Development Co., Inc.,
542 So.2d 810, p. 813 (La.App. 3 Cir. 1989)
(emphasis added), this court identified two
factors that must be considered when
determining whether a trial court abused its
discretion in denying a request to move a
decedent's remains: (1) "exhumation of a body is
not favored in the law and is against public
policy, except in cases of necessity or for laudable
purposes[,]" and (2) whether "the party asserting
the right to disinterment freely consented to the
initial interment and with the understanding
that the interment place selected was to be
permanent."
In Nolan v. Nolan, 125 So.2d 792 (La.App. 4 Cir.
1961), the court had to determine whether a
plaintiff with statutory authority under La.R.S.
8:655 and La.R.S. 8:659 should be allowed to
move her husband to another cemetery. In
making its decision, the court considered the
following factors:

23A

(1) Whether the initial selection of the resting
place was made with deliberation and without
mental reservation that at some future time
removal might be desired; (2) whether there are
evidences of such antagonism and hostility
between the surviving spouse and the owners of
the tomb or burial plot as would prevent the
surviving spouse from visiting the grave freely
and without embarrassment or humiliation; and
(3) whether the [decedent] had evidenced a
preference for one location as opposed to the
other. Id. at 795.
The only evidence Mr. Sonnier introduced at the
hearing is Trey's PADD. His pleadings and
argument of counsel are not evidence. In re
Melancon, 05-1702, p. 7 (La. 7/10/06), 935 So.2d
661. Ms. Pierre attended the hearing on her own
behalf without representation and made a
statement on the record explaining her position
on Mr. Sonnier's request. Her statement
established that a conflict arose between her, her
current husband, and Mr. Sonnier regarding
Trey's burial and Mr. Sonnier's plans for Trey's
burial. Ms. Pierre's statement substantiates Mr.
Sonnier's allegations that his plans for Trey's
burial have not been fulfilled due to her and her
current husband's actions. Thus, Mr. Sonnier's
"right to control" Trey's interment and his

24A

consent to Trey being buried in his current
resting place was undermined and vitiated by
the Pierres' purchase of the two plots adjacent to
Trey's plot. Unless he is allowed to move Trey's
remains, Mr. Sonnier cannot complete his plan
for Trey's burial, and the authority to control the
disposition of Trey's remains granted to him by
Trey's Form 93, will have been ignored and
usurped. Accordingly, in my view, the trial court
abused its discretion when it denied Mr.
Sonnier's request to move Trey to another
cemetery, and its judgment should be reversed. I
would grant judgment authorizing Mr. Sonnier
to move Trey's remains to another location of his
choice.
Lastly, I have considered the Board's argument
that Title 8's definition of "disposition" does not
include disinterment; therefore, Trey's PADD
cannot be extended to authorize disinterment.
"Disposition" was not defined in the statute until
after this suit was filed. The retroactivity of
statutes is addressed by La. R.S. 1:2, which
states: "[n]o Section of the Revised Statutes is
retroactive unless it is expressly so stated."
Nonetheless, a law that disturbs vested rights
can only be applied prospectively. Home Bank v.
Marcello, 17-281 (La. App. 4 Cir. 10/18/17)
(citing Landry v. Baton Rouge Police Dep't, 08-

25A

2289 (La. App. 1 Cir. 5/8/09), 17 So.3d 991). Mr.
Sonnier's rights under Trey's PADD vested at
the time of Trey's death. Application of the
amendment would disturb Mr. Sonnier's vested
rights; therefore, the definition of disposition
cannot be applied herein. Additionally, Section
659 did not address what "other directions" were
required to have a decedent's remains moved.
This argument lacks merit.

26A

202 So.3d 992 (Mem)
Eugene J. Sonnier, II
v.
The Catholic Foundation of the Diocese of
Lafayette, et al.
NO. 16-C-0839 Supreme Court of Louisiana.
October 28, 2016
PER CURIAM
Granted in part and denied in part. We find no
error in the judgment of the court of appeal
insofar as it affirmed the district court's
judgment holding relator failed to state a cause
of action for recognition of ownership, injunctive
relief or damages. However, it is unclear
whether the district court made a determination
of whether relator stated an alternative cause of
action for re-interment pursuant to La. R.S.
8:659.
Eugene Sonnier, III (“Trey”), the son of relator,
Eugene J. Sonnier, II (“Mr. Sonnier”), and his exwife, Norlet Pierre, died in October 2013 while
serving in the United States Air Force. Prior to
his death, Trey executed Department of Defense
Form 93 which, among other things, allows
military members to designate the “person
27A

authorized to direct disposition” (“PADD”). Mr.
Sonnier was listed as the PADD on Form 93, and
thus was the person authorized to make all plans
relative to Trey's funeral and burial. [202 So.3d
993]
Following Trey's death, Mr. Sonnier met with
the cemetery manager and purchased a plot as
Trey's burial place. Mr. Sonnier further advised
the manager that his plan was to construct a
double tomb so he could be buried next to his
son, and indicated his intent to purchase the two
adjacent plots that were necessary to construct
the double tomb. However, when Mr. Sonnier
contacted the manager the following month, he
was advised that the adjacent plots had been
purchased by Trey's mother, Ms. Pierre, and her
husband. In addition, although Mr. Sonnier was
the sole purchaser of Trey's plot, the title to the
plot was re-issued jointly to Mr. Sonnier and Ms.
Pierre.
Mr. Sonnier filed suit against several parties,
essentially asserting sole ownership of the plots
or, alternatively, seeking permission to move
Trey's remains since he had the exclusive right
to control his son's interment by virtue of his
authority under Form 93. The defendants filed
exceptions of no cause of action which were
granted by the district court and Mr. Sonnier's
28A

suit was thereafter dismissed. The court of
appeal affirmed that judgment.
La. R.S. 8:659 provides:
A. The remains of a deceased person may be
moved from a cemetery space to another
cemetery space in the same cemetery or to
another cemetery with the consent of the
cemetery authority and the written consent of
one of the following, in the order named, unless
other directions in writing have been given by
the decedent:
(1) The surviving spouse, if no petition for
divorce has been filed by either spouse prior to
the death of the decedent spouse.
(2) The surviving adult children of the decedent,
not including grandchildren or other more
remote descendants.
(3) The surviving parents of the decedent. (4)
The surviving adult brothers and sisters of the
decedent.
B. If the required consent cannot be obtained, a
final judgment of the district court of the parish
where the cemetery is situated shall be required.

29A

Based on our review of the writ application, it
appears Mr. Sonnier failed to allege he requested
consent from the cemetery authority for the reinterment or that such consent was requested
but wrongfully withheld by defendants, pursuant
to La. R.S. 8:659. However, because Mr. Sonnier
could amend his petition to cure this defect, it is
appropriate to remand the case to the district
court to give relator an opportunity to do so
pursuant to La. Code Civ. P. art. 934.
Trey honorably served this country as a member
of the United States Air Force. Our service men
and women work every day to protect and defend
this nation, and put their lives at risk for the
benefit of all of us. As such, these brave men and
women necessarily rely on the validity of their
formal designations, and should be able to trust
that their wishes will be honored in the event
their lives are lost in the line of duty. Here, it is
undisputed that Trey specifically designated Mr.
Sonnier as the sole PADD. Trey did not choose
his mother as co-designee. Thus, Trey trusted
Mr. Sonnier to independently make all decisions
relative to his burial. Mr. Sonnier chose and
purchased a burial plot for Trey and planned to
be buried next to his son in a double tomb.
Allowing Mr. Sonnier an opportunity to proceed

30A

with his action for re-interment gives Trey's
PADD directive the broad deference it deserves.
Accordingly, the writ is granted in part. The
judgment of the court of appeal is amended for
the sole purpose of providing that the case shall
be remanded to the district court to give relator
an opportunity to amend his petition to state a
cause of [202 So.3d 994] action for re-interment
pursuant to La. R.S. 8:659. In all other respects,
the writ is denied.
JOHNSON, C.J.,
assigns reasons.

additionally

concurs

and

KNOLL, J., dissents and would deny.
Weimer, J., dissents and assigns reasons.
JOHNSON, C.J.,
assigns reasons.

additionally

concurs

and

I agree with the ruling of this court that Mr.
Sonnier should be given the opportunity to
pursue his claim for re-interment pursuant to
La. R.S. 8:659.
In my view, requiring the consent of the
cemetery pursuant to La. R.S. 8:659 violates Mr.
Sonnier's PADD rights. 10 U.S.C. § 1482, which
31A

governs the PADD, provides the PADD is
designated “to direct disposition of the remains
of a decedent.” Comparable Louisiana law
provides that the PADD has the right to control
interment. Mr. Sonnier's decision pursuant to his
PADD power to control Trey's interment
included the plan that they be buried next to
each other in a double tomb. Thus, based on the
specific facts of this case, Mr. Sonnier's PADD's
authority in this case cannot be limited to the
choice of initial disposition of the remains. Thus,
any refusal to allow re- interment would impede
Mr. Sonnier's PADD authority.
KNOLL, J., dissents and would deny. Weimer,
J., dissenting.
From the majority's ruling regarding an
alternative cause of action for re- interment
pursuant to La. R.S. 8:659, I respectfully dissent.
According to defendants, Mr. Sonnier filed a
separate suit, unrelated to the application before
this court, “styled Petition for Permission to
Remove Remains which is currently pending in
the 15th JDC, Parish of Lafayette, Docket No.
2015–5619K.” Therefore, the majority's direction
for what should happen in a re-interment action,
when such an action is separately pending and is
not before this court, appears tantamount to
32A

issuing an advisory opinion. “It is well settled
that courts will not decide abstract, hypothetical
or moot controversies, or render advisory
opinions with respect to such controversies. In
order to avoid deciding abstract, hypothetical or
moot questions, courts require cases submitted
for adjudication to be justiciable, ripe for
decision, and not brought prematurely.”
LaPointe v. Vermilion Parish School Bd., 15–
0432, p. 9 (La. 6/30/15), 173 So.3d 1152, 1159.
I am, of course, very much in favor of honoring
the wishes of those who have honorably served
our country. I believe this court can honor those
wishes here while remaining within the
constraints of the lawsuit before us. It is well
within this court's power to inquire as to the
status of the separate re- interment suit. I would
be in favor of such an inquiry before granting
leave to amend to state a re-interment cause of
action that may already have been separately
pleaded. Moreover, there are questions regarding
the extent to which a servicemember's selection
of a person to authorize the manner of the
servicemember's
burial
amounts
to
an
authorization for the same person to later
effectuate a re-interment. Without having those
questions squarely presented for this court's
resolution, including a full exploration of those

33A

questions in the courts below after each party
has been heard, I believe this court has not
adequately explored the extent to which Eugene
J. Sonnier, III had authorized anyone to bring an
action for his re-interment. The burial of
servicemembers who have sacrificed so much for
our country is itself a sacred matter, and the
courts, including this court, ought not [202 So.3d
995] lightly presume anyone has been given the
authority to disturb their final rest.

34A

Eugene J. SONNIER, II
v.
The CATHOLIC FOUNDATION OF THE
DIOCESE OF LAFAYETTE, et al.
No. 15–1051.
Court of Appeal of Louisiana, Third Circuit.
March 2, 2016. Rehearing Denied April 13,
2016.
[215 So.3d 806]
Harold D. Register, Jr., Lafayette, LA, for
Plaintiff/Appellant, Eugene J. Sonnier, II.
D. Reardon Stanford, Hoyt & Stanford,
Lafayette, LA, for Defendant/Appellee, Norlet
Pierre.
Troy Allen Broussard, Allen & Gooch, Lafayette,
LA, for Defendants/Appellees, Society of the
Roman Catholic Church of the Diocese of
Lafayette, The Catholic Foundation of the
Diocese of Lafayette, The Congregation of St.
Genevieve Roman Catholic Church.
Court composed of MARC T. AMY, PHYLLIS M.
KEATY, and JOHN E. CONERY, Judges.

35A

AMY, Judge.
The plaintiff filed suit alleging that the
defendants interfered with his right to direct the
disposition of his son's remains as designated by
his son and as reflected by a military form. He
alleged that, by virtue of the designation, the
cemetery plot in which his son was buried, as
well as the two adjacent plots should be titled
solely in his name. Following amendment of the
petition, the trial court sustained the defendants'
exceptions of no cause of action and dismissed
the plaintiff's claim. The plaintiff appeals. For
the following reasons, we affirm.
Factual and Procedural Background
The record indicates that Eugene Sonnier, III,
the son of Eugene J. Sonnier, II and Norlet
Pierre, died in October 2013 while serving in the
United States Air Force. He was ultimately
buried in Plot 21 of the Calvary Cemetery in
Lafayette.
Mr. Sonnier filed this matter and by amending
petition alleged that, by designation of his son,
he was "the Person Authorized to Direct (PADD)
the Disposition" of his son following his death.
Mr. Sonnier asserted that this designation
provided him with the exclusive right to "control
36A

the interment" of his son's remains "through the
D[epartment of] D[efense] Form 93." (hereinafter
Form 93.)
Mr. Sonnier initially named The Catholic
Foundation of the Diocese of Lafayette,
Louisiana (the "Diocese") and Mrs. Pierre as
defendants, alleging that he was the sole owner
of the subject burial plot and [215 So.3d 807]
that he "acquired ownership of the property" "by
way of an insurance assignment, payments made
individually, and/or pursuant to rights bestowed
upon him by his son via a properly executed"
Form 93. Yet, he contended that Mrs. Pierre was
"in possession of the property" and was
"erroneously claiming an ownership interest in"
the plot. Mr. Sonnier asserted that the discord
surrounding the plot resulted in the decedent's
tomb not being completed. Mr. Sonnier alleged
that the "Diocese of Lafayette, through Calvary
Cemetery" "will complete the construction of said
tomb" to his "irreparable detriment" if not
restrained. Therefore, Mr. Sonnier sought the
issuance of a temporary restraining order
preventing the completion of the construction of
the decedent's tomb. He further prayed that he
be recognized as the "legal owner" of the subject
plot and that the trial court order "that
Defendant's alleged acquisition of ownership of

37A

said property be erased from any public record in
this parish applicable to cemetery plots."
In response, the Diocese filed an exception of no
cause of action, noting that the plaintiff did not
allege that it owned or managed the cemetery.
The Diocese further suggested that Mr. Sonnier's
suit was "procedurally flawed" as it did not name
the cemetery's owner, St. Genevieve Roman
Catholic Church of the Diocese of Lafayette, as a
defendant. Addressing an aspect of the factual
background that was not included in the original
petition, the Diocese noted that Plot 21 was
initially titled only in Mr. Sonnier's name.
However, upon learning of Mr. Sonnier's and
Mrs. Pierre's dispute as to the title, the Vice
President of St. Genevieve, Monsignor Curtis
Mallet, reviewed the dispute and "determined
that the initial titling of the plot in Sonnier's
name only was in error, and he directed the
cemetery staff to issue a corrected title in
Sonnier and Pierre's names, jointly." The title
was thereafter reissued. Further, the Diocese
asserted that no cause of action
existed as the cemetery was following its own
rules and regulations in requiring completion of
the tomb after Mr. Sonnier and Mrs. Pierre did
not do so in excess of one year after their son's
interment. This factor, the Diocese asserted,
38A

undermined the request for a restraining order
as well.
By "Amended Petition for Recognition of
Ownership and Injunctive Relief," Mr. Sonnier
named St. Genevieve Roman Catholic Church of
the Diocese of Lafayette as a defendant. He
alleged that "St. Genevieve purportedly owns
Calvary Cemetery and as the owner of the
cemetery St. Genevieve intends to complete
construction of said tomb unless the dispute as
stated in the original Petition is resolved
between Plaintiff and Mrs. Pierre." Mr. Sonnier
asserted that "construction could begin any day
now," and that such construction of the tomb
would cause him irreparable injury "as the tomb
carries his son, and he has a strong interest and
right in completing said tomb in a reasonable
manner to his choosing." Further, he alleged that
Form 93 provided him with the exclusive right to
control the interment of his son and that La.R.S.
8:655, addressed below, as well as "military and
federal law[,] override[ ] the policies as elicited
by St. Genevieve which allegedly give it the right
to complete construction of said tomb." He
asserted that he "is the sole and exclusive owner"
of Plot 21 "granted to him thought [sic] the DD
Form 93." [215 So.3d 808]

39A

Mr. Sonnier additionally alleged that adjacent
Plots 20 and 22 "were improperly given to Mrs.
Pierre because they were procured in a deceptive
fashion." On this latter point, Mr. Sonnier stated
that: "Mrs. Pierre was aware that Mr. Sonnier
informed Mr. Dunand that Mr. Sonnier would
purchase the aforementioned plots, however,
totally
disregarding
Plaintiff's
right
to
exclusively control the interment of Mr. Sonnier,
III, Mrs. Pierre purchased the aforementioned
burial plots and was granted ownership" of
them. Mr. Sonnier asked that the trial court rule
that he "is the correct and sole owner" of the two
plots or, alternatively, that he "is the sole owner"
of either plot. Barring these alternatives, Mr.
Sonnier asked that the trial court permit him to
remove his son's remains to another cemetery as
he "has the exclusive right to control" his son's
interment.
Following the amendment to the petition, the
Diocese submitted evidence pertaining to the
plot ownership as an exhibit to its memorandum
in support of its exception of no cause of action
and in opposition to the petition for recognition
of ownership and injunctive relief. Additionally,
Mrs. Pierre filed exceptions of no cause of action
and vagueness or ambiguity of the petition.

40A

Upon consideration of these initial filings, the
trial court sustained the Diocese's exception of
no cause of action and further sustained Mrs.
Pierre's exception of vagueness and ambiguity of
the petition. The trial court's ruling permitted
Mr. Sonnier fifteen days to amend the petition.
Thereafter, Mr. Sonnier filed a Second Amended
Petition for Recognition of Ownership and
Injunctive Relief once again asserting that he
held exclusive rights as the PADD (under Form
93). He further included allegations regarding
his and Mrs. Pierre's actions in preparing for the
burial of their son. He asserted that "[o]ut of the
kindness of his heart," he invited Mrs. Pierre to
join him at Calvary Cemetery, "not for her to
make any decisions whatsoever, but for her to be
there while [he] utilized his exclusive rights as
the PADD to arrange" their son's funeral service.
He stated that he made all selections involving
plot location and vault and informed the
respective personnel to forward the bills to him.
He also alleged that he paid for various other
funeral service expenses. He stated that,
although Mrs. Pierre was aware that he
intended to "and was going to pay for the plots
adjacent to" their son, Mrs. Pierre "maliciously
proceeded to divest [him] of his exclusive rights
to direct the disposition of [their son] when she

41A

directed" her husband to go to the cemetery and
purchase Plots 20 and 22 before he could
purchase them.
Mr. Sonnier further complained that Monsignor
Mallet failed to correct "the error" of cemetery
officials in selling the adjacent plots to Mrs.
Pierre's husband and thereby "completely
usurp[ed] the vested rights given to [him] as the
PADD." The conflict surrounding the title [215
So.3d 809] issues as to the three plots, Mr.
Sonnier asserted, resulted in the inability to
complete the gravesite "because the concept that
[he] rightfully chose as the PADD, requires the
two adjacent burial plots that were improperly
sold and taken away from [him]" and, therefore,
"completely divesting" him "of his clear and
absolute right to direct the disposition" of his
son's remains. Mr. Sonnier asserted that he paid
for all expenses associated with his son's funeral,
"including the burial plot where [he] is buried"
and further reimbursed Mrs. Pierre for any of
her expenses. While he suggested that he bore
"[a]ll financial responsibility" associated with the
disposition of his son's remains, he further
alleged that " 10 U.S.C. § 1482 entitled
‘Expenses Incident to Death’ not only gives [him]
authorization as the PADD, but also gives [him]

42A

monetary support to carry out his duties as the
PADD."
At the conclusion of the second amended
petition, Mr. Sonnier requested that the trial
court name him as the sole owner of Plot 21 and
"[i]n the alternative" he requested that the trial
court name him the sole owner of
Plots 20 and 22. Finally, Mr. Sonnier prayed
that if the trial court did not grant the above
demands, he asked that the trial court "relocate"
his son's body to another location within the
cemetery.
Following the amendment, the Diocese and St.
Genevieve again filed an exception of no cause of
action as did Mrs. Pierre. As before, the Diocese
noted that Mr. Sonnier raised no facts indicating
that it owned the subject cemetery or otherwise
controlled or managed the cemetery. As for St.
Genevieve's involvement, it argued that the facts
alleged revealed no avenue prohibiting the
enforcement of its own rules and regulations
regarding construction of the tomb per La.R.S.
8:204. Mrs. Pierre similarly asserted that no
cause of action existed and disputed Mr.
Sonnier's suggestion that the relief sought was
available to him through the authority
purportedly granted to him by Form 93.
43A

Following a hearing, the trial court sustained the
exceptions of no cause of action. The judgment
that followed dismissed the plaintiff's claims
against all defendants.
Mr. Sonnier appeals, setting forth the following
assignment of error:
The trial court erred when it determined that
there was no cause of action when the Office of
Vicar General for the Diocese of Lafayette
retitled Calvary Cemetery, St. Catherine section,
plot 21 from its original owner, Eugene J.
Sonnier, II and when Mr. Paul Dunand, of
Calvary Cemetery, sold a burial plot to Titus and
Norlet Pierre although both Mr. Dunand and
Norlet Pierre were aware that Eugene Sonnier,
II had reserved the plots.
As reflected by this assignment of error, Mr.
Sonnier no longer addresses the prior request for
injunctive relief or any facts surrounding the
completion of the tomb. As that argument has
seemingly been abandoned or otherwise
rendered moot, we do not address that initial
concern herein.
Discussion
Exception of No Cause of Action
44A

Louisiana Code of Civil Procedure Article
927(A)(5) provides for the peremptory exception
of no cause of action. The exception's function is
to test the legal sufficiency of the plaintiff's
petition by determining whether the law affords
a remedy on the facts alleged. Everything on
Wheels Subaru, Inc. v. Subaru S., Inc., 616 So.2d
1234, 1235 (La.1993). Pursuant to La.Code
Civ.P. art. 931, no evidence may be introduced to
support or to controvert the exception of no cause
of action. In trying the exception on the face of
the pleadings, the trial court must accept the
[215 So.3d 810] well-pleaded allegations of fact
in the petition as true and determine whether
the plaintiff is legally entitled to the relief
sought. Everything on Wheels, 616 So.2d 1234.
However, because Louisiana employs a system of
fact pleading, mere conclusions by the plaintiff,
unsupported by facts, will not set forth a cause of
action. Ramey v. DeCaire, 03–1299 (La.3/19/04),
869 So.2d 114. As the exception raises a question
of law and the trial court bases its decision solely
on the sufficiency of the petition, an appellate
court reviews a ruling on an exception of no
cause of action de novo. Reynolds v. Bordelon,
14–2362 (La.6/30/15), 172 So.3d 589.
Person Authorized to Direct Disposition

45A

Central to Mr. Sonnier's claim against the
Diocese and Mrs. Pierre is his assertion that his
designation as the PADD in Form 93 authorizes
him to exercise complete control of all matters
which he argues are related to the disposition of
his son's remains. In this regard, 10 U.S.C. §
1482, which relates to the expenses incident to
death of military personnel, provides, in part,
that:
(c) The following persons may be designated to
direct disposition of the remains of a decedent
covered by this chapter:
(1) The person identified by the decedent on the
record of emergency data maintained by the
Secretary concerned (DD Form 93 or any
successor to that form), as the Person Authorized
to Direct Disposition (PADD), regardless of the
relationship of the designee to the decedent.
(2) The surviving spouse to the of the decedent.
(3) Blood relatives of the decedent.
(4) Adoptive relatives of the decedent.
(5) If no person covered by paragraphs (1)
through (4) can be found, a person standing in
loco parentis to the decedent.
46A

Through this conduit, Mr. Sonnier seeks to have
the titles of Plots 21 and/or 20 and 22 placed in
his name alone. This decision, he contends, is
required in order for him to fulfill the directive
described by Form 93. After review, we find no
error in the trial court's determination that the
petitions filed in this case do not contain
sufficient facts so as to reveal that he is entitled
to such relief.
First, and as to the Diocese, the petition does not
indicate through what channel, if any, the
Diocese has control over Calvary Cemetery.
Instead, in his amended petition, Mr. Sonnier
alleged that St. Genevieve "purportedly owns the
cemetery." He further alleges that his
interactions with personnel regarding the
selection of and payment for the plots, including
payment by Mrs. Pierre's husband, occurred
through "Paul Dunand of Calvary Cemetery."
While he alleges that Monsignor Mallet "changed
the deed" of Plot 21 to list himself and Mrs.
Pierre as co-owners of Plot 21 "although it is
their clear and written policy to not have coowned plots," he does not identify in what
capacity Monsignor Mallet made such a decision
or, in this instance, which "policy" prohibits such
ownership. In short, the petitions do not reveal
any type of hierarchical structure that joins the

47A

Diocese with St. Genevieve, who allegedly owned
the subject cemetery.
As for St. Genevieve, the petitions lack
indication that the ownership of the plot(s) is
dictated by 10 U.S.C. § 1482 [215 So.3d 811]
which only references the "disposition of the
remains of the deceased[.]" See also La.R.S.
8:655. Neither the statute nor jurisprudence
indicate that the parameters of the PADD
directive dictate the ownership of the plot in
which the deceased is interred. Moreover, the
second amending petition reveals that Mr.
Sonnier did not pay for adjacent Plots 20 and 22.
Rather, he alleged that Mr. Pierre paid for those
plots. Despite this allegation, Mr. Sonnier
alternatively seeks placement of the title of those
plots in his name. Whether by reference to 10
U.S.C. § 1482, or by reference to specific facts,
the petitions do not set forth a cause of action
entitling Mr. Sonnier to the relief sought.
Neither do we find merit in the assertion that
Mr. Sonnier is entitled to have St. Genevieve retitle the plots solely in his name due to a
violation of its rules and regulations.
Significantly, La.R.S. 8:204 provides that:

48A

A cemetery authority may make, adopt, amend,
add to, revise, repeal or modify, and enforce rules
and regulations for the use, care, control,
management, restriction and protection of all or
any part of its cemetery, including without
limitation the following:
(1) It may restrict and limit the use of all
property within its cemetery;
(2) It may regulate the uniformity, class and
kind of all markers, monuments and other
structures within the cemetery and its
subdivisions; [215 So.3d 812]
(3) It may regulate or prohibit the erection
and/or installation of monuments, markers,
effigies, structures and foundations within the
cemetery;
(4) It may regulate or prevent the introduction or
care of plants or shrubs within the cemetery;
(5) It may prevent interment in any part of the
cemetery of human remains not entitled to
interment and prevent the use of interment
spaces for purposes violative of its restrictions or
rules and regulations;

49A

(6) It may regulate the conduct of persons and
prevent improper assemblages in the cemetery,
and
(7) It may make and enforce rules and
regulations for all other purposes deemed
necessary by the cemetery authority for the
proper conduct of the business of the cemetery,
for the transfer of any interment space or the
right of interment, and the protection and
safeguarding of the premises, and the principles,
plans, and ideals on which the cemetery is
conducted.
Although the plaintiff suggests that various
cemetery rules were violated, the allegation is
conclusory in nature. The petitions do not set
forth sufficient facts so as to determine that
particular conduct by St. Genevieve violated a
particular rule(s) applicable to the cemetery. The
petitions
generally
detail
the
factual
background, above, and describe St. Genevieve's
ultimate actions as violative of their rules and
regulations. However, mere conclusions of the
plaintiff unsupported by facts will not set forth a
cause or right of action. Montalvo v. Sondes, 93–
2813 (La.5/23/94), 637 So.2d 127.
By way of example, we note that, in Paragraph
58 of the second amended petition, Mr. Sonnier
50A

alleges that "[t]he Diocese of Lafayette has
indicated in their policies that joint ownership of
burial plots is not allowed." Yet, as stated above,
there is no allegation that the Diocese owned,
controlled, or directed Calvary Cemetery.
Neither do the petitions advance that the
"policy" referenced in this regard is applicable to
this occurrence. Simply, the petitions allege
various facts and allegations without sufficient
connectivity so as to set forth a cause of action.
Accordingly,
we
leave
undisturbed
the
sustaining of the exception of no cause of action
as to both the Diocese and to St. Genevieve.
Mrs. Norlet Pierre
Finally, we address the petition(s) in the context
of the claim against Mrs. Pierre. While the
plaintiff broadly states that Mrs. Pierre
interfered with his ultimate "concept" to have
three adjacent plots for his son's burial, the
petitions do not set forth facts constituting a
cause of action against her in this regard.
Instead, she is alleged to have caused the title of
Plot 21 to be re- issued jointly in her name and
that she purchased the two adjacent plots. While
Mr. Sonnier was dissatisfied with her conduct,
he has not alleged facts constituting a cause of

51A

action against her, i.e., no facts constituting a
tortious or contractual claim.
Accordingly, we leave undisturbed the trial
court's determination.
Disinterment
Finally, we point out that, by the second
amending petition, Mr. Sonnier alternatively
sought permission to have his son's body moved
to another location within Calvary Cemetary
"based on all information presented herein which
illustrate that Eugene Sonnier, II's rights have
been [215 So.3d 813] vastly undermined." To the
extent the trial court's ruling encompassed this
alternative demand, we again leave that claim
undisturbed. Instead, 10 U.S.C. § 1482(c)
permits the PADD to "direct disposition of the
remains of a decedent[.]" The statute is silent on
the right to later disinter those remains.
However, La.R.S. 8:659, entitled "Permission to
move remains," provides that:
A. The remains of a deceased person may be
moved from a cemetery space to another
cemetery space in the same cemetery or to
another cemetery with the consent of the
cemetery authority and the written consent of
52A

one of the following, in the order named, unless
other directions in writing have been given by
the decedent:
(1) The surviving spouse, if no petition for
divorce has been filed by either spouse prior to
the death of the decedent spouse.
(2) The surviving adult children of the decedent,
not including grandchildren or other more
remote descendants.
(3) The surviving parents of the decedent. (4)
The surviving adult brothers and sisters of the
decedent.
B. If the required consent cannot be obtained, a
final judgment of the district court of the parish
where the cemetery is situated shall be required.
This provision makes no reference to Form 93.
Additionally,
in
Spiess
v.
Greenwood
Development Co., Inc., 542 So.2d 810, 813
(La.App. 3 Cir.1989), a panel of this court made
the distinction between a party having the legal
authority "to control the disposition of the
remains of a deceased person" pursuant to
La.R.S. 8:655 and the person(s) having authority
to direct the relocation of a deceased's remains
per La.R.S. 8:659. Referencing those statutes,
53A

the panel explained that the plaintiff in that case
"clearly had the sole statutory authority to
initially determine the decedent's final resting
place. However, after the decedent's initial
burial, the voluntary consent of the defendant
cemetery authority was also statutorily required
before the decedent's remains could be
disinterred and transferred." Id. Notably, while
La.R.S. 8:655 includes a reference to the PADD
on Form 93, La.R.S. 8:659 includes no such
reference.
As above, we find that the petitions do not set
forth facts allowing this alternative relief.
DECREE
For the foregoing reasons, the judgment of the
trial court is affirmed. Costs of this proceeding
are assessed to the plaintiff—appellant, Eugene
J. Sonnier, II.
AFFIRMED.

54A

10 U.S. Code § 1482.
Expenses incident to death
(a) Incident to the recovery, care, and disposition
of the remains of any decedent covered by section
1481 of this title, the Secretary concerned may
pay the necessary expenses of the following:
(1) Recovery and identification of the remains.
(2) Notification to the next of kin or other
appropriate person.
(3) Preparation of the remains for burial,
including cremation if requested by the person
designated to direct disposition of the remains.
(4) Furnishing of a uniform or other clothing.
(5) Furnishing of a casket or urn, or both, with
outside box.
(6) Hearse service.
(7) Funeral director’s services.
(8) Transportation of the remains, and travel and
transportation allowances as specified in
regulations prescribed under section 464 of title
37 for an escort of one person, to the place
55A

selected by the person designated to direct
disposition of the remains or, if such a selection
is not made, to a national or other cemetery
which is selected by the Secretary and in which
burial of the decedent is authorized. When
transportation
of
the
remains
includes
transportation by aircraft under section 562 of
the
John
Warner
National
Defense
Authorization Act for Fiscal Year 2007 (Public
Law 109–364; 10 U.S.C. 1482 note), the
Secretary concerned shall provide, to the
maximum extent practicable, for delivery of the
remains by air to the commercial, general
aviation, or military airport nearest to the place
selected by the designee.
(9) Interment or inurnment of the remains.
(10) In the case of a decedent under the
jurisdiction of a Secretary of a military
department at the time of death, enduring care
of remains interred in a foreign cemetery if the
burial location was designated by such
Secretary.
(b) If an individual pays any expense payable by
the United States under this section, the
Secretary concerned shall reimburse him or his
representative in an amount not larger than that
normally incurred by the Secretary in furnishing
56A

the
supply
or
service
concerned.
If
reimbursement by the United States is also
authorized under another provision of law or
regulation, the individual may elect under which
provision to be reimbursed.
(c) The following persons may be designated to
direct disposition of the remains of a decedent
covered by this chapter:
(1) The person identified by the decedent on the
record of emergency data maintained by the
Secretary concerned (DD Form 93 or any
successor to that form), as the Person Authorized
to Direct Disposition (PADD), regardless of the
relationship of the designee to the decedent.
(2) The surviving spouse of the decedent.
(3) Blood relatives of the decedent.
(4) Adoptive relatives of the decedent.
(5) If no person covered by paragraphs (1)
through (4) can be found, a person standing in
loco parentis to the decedent.
(d) When the remains of a decedent covered by
section 1481 of this title, whose death occurs
after January 1, 1961, are determined to be
57A

nonrecoverable, the person who would have been
designated under subsection (c) to direct
disposition of the remains if they had been
recovered may be—
(1) presented with a flag of the United States;
however, if the person designated by subsection
(c) is other than a parent of the deceased
member, a flag of equal size may also be
presented to the parents, and
(2) reimbursed by the Secretary concerned for
the necessary expenses of a memorial service.
However, the amount of the reimbursement shall
be determined in the manner prescribed in
subsection (b) for an interment, but may not be
larger than that authorized when the United
States provides the grave site. A claim for
reimbursement under this subsection may be
allowed only if it is presented within two years
after the date of death or the date the person
who would have been designated under
subsection (c) to direct disposition of the
remains, if they had been recovered, receives
notification that the member has been reported
or determined to be dead under authority of
chapter 10 of title 37, whichever is later.
(e)Presentation of Flag of the United States.—
58A

(1) In the case of a decedent covered by section
1481 of this title, the Secretary concerned may
pay the necessary expenses for the presentation
of a flag of the United States to the following
persons:
(A) The person designated under subsection (c)
to direct disposition of the remains of the
decedent.
(B) The parents or parent of the decedent, if the
person to be presented a flag under
subparagraph (A) is other than a parent of the
decedent.
(C) The surviving spouse of the decedent
(including a surviving spouse who remarries
after the decedent’s death), if the person to be
presented a flag under subparagraph (A) is other
than the surviving spouse.
(D) Each child of the decedent, regardless of
whether the person to be presented a flag under
subparagraph (A) is a child of the decedent.
(2) The Secretary concerned may pay the
necessary expenses for the presentation of a flag
to the person designated to direct the disposition
of the remains of a member of the Reserve of an
armed force under his jurisdiction who dies
59A

under honorable circumstances as determined by
the Secretary and who is not covered by section
1481 of this title if, at the time of such member’s
death, he—
(A) was a member of the Ready Reserve; or
(B) had performed at least twenty years of
service as computed under section 12732 of this
title and was not entitled to retired pay under
section 12731 of this title.
(3) A flag to be presented to a person under
subparagraph (B), (C), or (D) of paragraph (1)
shall be of equal size to the flag presented under
subparagraph (A) of such paragraph to the
person designated to direct disposition of the
remains of the decedent.
(4) This subsection does not apply to a military
prisoner who dies while in the custody of the
Secretary concerned and while under a sentence
that includes a discharge.
(5) In this subsection:
(A) The term “parent” includes a natural parent,
a stepparent, a parent by adoption, or a person
who for a period of not less than one year before
the death of the decedent stood in loco parentis
60A

to the decedent. Preference under paragraph
(1)(B) shall be given to the persons who exercised
a parental relationship at the time of, or most
nearly before, the death of the decedent.
(B) The term “child” has the meaning prescribed
by section 1477(d) of this title.
(f) The payment of expenses incident to the
recovery, care, and disposition of a decedent
covered by section 1481(a)(9) of this title is
limited to the payment of expenses described in
paragraphs (1) through (5) of subsection (a) and
air transportation of the remains from a location
outside the United States to a point of entry in
the United States. Such air transportation may
be provided without reimbursement on a spaceavailable basis in military or military-chartered
aircraft. The Secretary concerned may pay any
other expenses relating to the remains of such a
decedent that are authorized to be paid under
this section only on a reimbursable basis.
Amounts reimbursed to the Secretary concerned
under this subsection shall be credited to
appropriations available, at the time of
reimbursement, for the payment of such
expenses.
(g)

61A

(1) The payment of expenses incident to the
recovery, care, and disposition of the remains of
a decedent covered by section 1481(a)(10) of this
title is limited to those expenses that, as
determined under regulations prescribed by the
Secretary of Defense, would not have been
incurred but for the retention of those remains
for purposes of a forensic pathology investigation
by the Armed Forces Medical Examiner under
section 1471 of this title.
(2) In a case covered by paragraph (1), if the
person designated under subsection (c) to direct
disposition of the remains of a decedent does not
direct disposition of the remains that were
retained for the forensic pathology investigation,
the Secretary may pay for the transportation of
those remains to, and interment or inurnment of
those remains in, an appropriate place selected
by the Secretary, in lieu of the transportation
authorized to be paid under paragraph (8) of
subsection (a).
(3) In a case covered by paragraph (1), expenses
that may be paid do not include expenses with
respect to an escort under paragraph (8) of
subsection (a), whether or not on a reimbursable
basis.

62A

(4) The Secretary concerned may pay any other
expenses relating to the remains of such a
decedent that are authorized to be paid under
this section on a reimbursable basis. Amounts
reimbursed to the Secretary concerned under
this
subsection
shall
be
credited
to
appropriations available at the time of
reimbursement for the payment of such
expenses.

63A

Louisiana Revised Statutes
Title 8 §655. Right of disposing of remains;
military personnel; limitation of liability
A. Unless other specific directions have
been given or the designation of a specific person
to control disposition has been made by the
decedent in the form of a notarial testament or a
written and notarized declaration, the following
persons, in the priority listed, have the right to
control and authorize the interment of a
deceased person, as defined in R.S. 8:1:
(1) The person designated to control
disposition by the decedent in the form of a
notarial testament or a written and notarized
declaration.
(2) The surviving spouse, if there is no
pending petition for divorce filed by either
spouse prior to the death of the decedent spouse.
(3) A majority of the surviving adult
children of the decedent.
(4) A majority of the surviving adult
grandchildren of the decedent.
(5) The surviving parents of the decedent.
(6) A majority of the surviving adult
siblings of the decedent.
(7) A majority of the surviving adult
persons respectively in the next degrees of

64A

kindred as established in Civil Code Article 880
et seq.
B.(1) Notwithstanding the provisions of
Subsection A of this Section, if the decedent died
in a manner described by 10 U.S.C. §1481 (a)(1)
through (8) while serving in any branch of the
United States Armed Forces, the United States
Reserve Forces, or National Guard, and the
decedent executed a United States Department
of Defense Record of Emergency Data, known as
DD Form 93, or its successor form, the right to
control interment for the decedent shall devolve
upon the Person Authorized to Direct
Disposition, also referred to as the PADD, as
indicated on the DD Form 93 or its successor
form.
(2) There shall be no liability for a
cemetery authority, funeral establishment,
funeral director, crematory authority, or the
employees or agents of any of them to whom a
copy of a DD Form 93 is presented, purportedly
executed by the decedent for conduction of the
interment or other disposition of the decedent's
remains, pursuant to the instructions of the
PADD as indicated on the DD Form 93, or for
relying on the representation of the PADD that
the decedent died in a manner described in
Paragraph (1) of this Subsection.

65A

C.(1) In the event that the decedent has
made multiple notarial testaments or notarized
declarations pursuant to Subsection A of this
Section, the testament or declaration, whichever
is dated last, shall control.
(2) In the event that the decedent has
made one or more notarial testaments or
notarized declarations pursuant to Subsection A
of this Section, and the decedent executed a DD
Form 93 and died in a manner described in
Subsection B of this Section, the testament,
declaration, or the DD Form 93, whichever is
dated last, shall control interment of the
decedent's remains.
D. Notwithstanding the provisions of
Subsection A of this Section, in the event that
the coroner releases the remains of the decedent
to an interested person pursuant to R.S.
9:1551(A)(1), such person has the right to control
the disposition of the remains of the decedent.
E. In the absence of specific directions
given by the decedent, if the authorization of the
person or persons with the right to control
disposition cannot be obtained, a final judgment
of a district court shall be required.

66A

Department of Defense Form 93:

67A

68A

69A

70A

